Report No. SPO-2010-001                       March 31, 2010




                 Special Plans & Operations


    Assessment of U.S. and Coalition Efforts to Develop
        the Medical Sustainment Capability of the
             Afghan National Security Forces
General Information
Forward questions or comments concerning this assessment and report and other activities
conducted by the Office of Special Plans & Operations to:

                          Office of the Assistant Inspector General 

                               for Special Plans & Operations 

                      Department of Defense Office of Inspector General 

                                    400 Army Navy Drive 

                                 Arlington, VA 22202-4704 

                                              or 

                                   E-mail: spo@dodig.mil


An overview of the Office of Special Plans & Operations mission and organization and a list of
past evaluations and future topics are available at http://www.dodig.mil

To Report Fraud, Waste, and Abuse
Contact the Department of Defense Office of Inspector General hotline at
(800) 424-9098, E-mail at hotline@dodig.mil or write:

                                      Defense Hotline 

                                       The Pentagon

                                 Washington, DC 20301-1900 

                             Department of Defense
                             Office of Inspector General
______________________________________________________________________
March 31, 2010

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
                 COMMANDER, U.S. FORCES-AFGHANISTAN
                 COMMANDER, NATO TRAINING MISSION-
                  AFGHANISTAN / COMBINED SECURITY
                  TRANSITION COMMAND-AFGHANISTAN

SUBJECT: 	Assessment of U.S. and Coalition Efforts to Develop the Medical
          Sustainment Capability of the Afghan National Security Forces
          (Report No. SPO-2010-001)


We are providing this memorandum report for your information and use. We provided
this memorandum report in draft form to command in March 2010. No written response
was required, and none was received. Therefore, we are publishing this memorandum
report in final form.

This is the second in a series of Department of Defense (DoD), Office of Inspector
General (OIG), Special Plans and Operations (SPO), reports regarding the medical
sustainment capability of the Afghan National Security Forces (ANSF). The first report
titled “Assessment of Arms, Ammunition, and Explosives Control and Accountability;
Security Assistance; and Sustainment for the Afghan National Security Forces” (SPO-
2009-001) was published October 24, 2008.

Attachment A details the scope, methodology, and prior coverage and Attachment B
contains the report distribution list.

Objectives.	 The objectives for this assessment were to determine whether:

    		 Previous SPO recommendations regarding developing and sustaining the ANSF
        health care system had been implemented.
    		 Combined Security Training Command-Afghanistan (CSTC-A)1, and the
        Government of the Islamic Republic of Afghanistan Ministries of Defense and
        Interior had appropriately focused plans to develop and sustain the ANSF health
        care system and that these plans had been issued and were operative.

1
 On December 1, 2009, CSTC-A became a new organization, North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A). The
acronym CSTC-A refers to the organization in place at the time of our assessment.

                                                 1

   		 Ongoing CSTC-A efforts to develop an enduring, sustainable ANSF health care
       system were achieving the intended results.

However, during the course of our field work in Afghanistan and based on the on-the-
ground situation, we adjusted the scope of our assessment and only selectively followed-
up on the recommendations from the previous report.

Background. SPO deployed an assessment team to Afghanistan in March 2009 that
reviewed the status of CSTC-A plans and actions concerning the development of the
sustainment capability of ANSF, including the specific area of medical sustainment. This
was the second assessment SPO had carried out focused on this CSTC-A command
objective.

During the fieldwork, we expanded the scope of out-reach conducted during the previous
assessment to include U.S. medical mentoring at health care facilities in the capital,
Kabul, as well as at regional ANSF medical sites. We also conducted interviews with
U.S. medical mentor personnel assigned to deployed Embedded Training Teams. Our
assessment is a synthesis of information gathered prior to deployment and during the
field work through interviews, document reviews, and site visits. These were presented
in the form of observations and associated recommendations to the Commander, CSTC-A
and his staff prior to the team’s departure from theatre in March 2009.

Assessment Results. The assessment identified the following key concerns:

   1.		 CSTC-A plans lacked a clearly defined end state goal for the development of the
        ANSF health care system which had been fully agreed to and coordinated with the
        Government of the Islamic Republic of Afghanistan Ministries of Defense and
        Interior, and incorporated into their operations. As a result, U.S. military and
        ANSF resources were not being jointly focused, prioritized and executed in
        support of the development of a clearly defined and sustainable ANSF health care
        system, and progress in its accomplishment had been delayed.

   2.		 U.S. military medical mentors were not receiving adequate pre-deployment
        training that concentrated on the specialized knowledge and situational awareness
        they required. Therefore, they were not prepared sufficiently to carry out their
        duties and responsibilities once deployed, which limited their effectiveness and
        progress in accomplishing the mission to develop ANSF medical sustainability.

   3.		 CSTC-A did not provide necessary guidance and support for medical mentor
        teams during their tours, a problem exacerbated by not having clearly defined end
        state objectives for their respective mentoring contributions. This limited
        mentoring team effectiveness and contributed to inconsistency in performance.

These findings were out-briefed to the Commander, CSTC-A.



                                           2

Command Actions. Since the assessment visit in March 2009, CSTC-A has taken
significant actions to address issues raised by the team in its out-briefing. Specifically,
CSTC-A has:

   1.		 Assisted the Ministry of Defense and Ministry of Interior, as well as the Afghan
        National Army and Afghan National Police Surgeons General, to develop and
        define key aspects of the ANSF health care system, including: end state goals and
        objectives; health care development strategies; required resources; standards of
        care; performance metrics, accountability methodologies; and progress
        milestones.

   2.		 Defined its priority end state goal as ANSF ability to provide clinical and health
        care support services to the ANSF war-fighter (i.e. tactical field medicine).
        Additionally, it focused the medical mentor mission on assisting in the
        development of this capability for the ANSF, e.g., combat medic care of
        battlefield injuries, casualty evacuation, trauma surgery, surgical nursing, surgical
        intensive care, preventive medicine, disease/non-battle injuries, and trauma
        rehabilitation.

   3.		 Issued guidelines for pre-deployment medical mentor training for U.S. military
        personnel assigned to Afghanistan. The guidelines have since been converted into
        a systematic training program tailored for medical mentors that were first
        introduced into the program of instruction for prospective mentors at Ft. Riley,
        Kansas and which are now presented at Ft. Polk, Louisiana, which subsequently
        assumed mentor training responsibility for individuals assigned to this mission.

   4.		 Developed an in-country medical mentor training program incorporating: focused
        initial medical mentor orientation upon arrival in-country; a mentor training
        handbook; an action plan for each mentor team; and continuous monitoring and
        support for mentor teams throughout their tours, including application of metrics
        to measure their progress.

Additional Matters for Consideration. While the current CSTC-A Command
Surgeon has planned for and implemented initiatives fundamental to achieving the
necessary build-up of the ANSF health care system, converting this momentum to
sustainable progress will depend on continuity of effort by succeeding Command
Surgeons to implement fully the CSTC-A strategic plan with respect to ANSF health care
development.

While CSTC-A has made substantial progress in its planning, training and mentoring
initiatives to develop an effective and sustainable ANSF health care system, in order for
these efforts to produce the results ultimately intended, the planning and execution of this
mission will have to be embedded broadly within CSTC-A across all appropriate staff
elements, beyond the office of the Command Surgeon.

                                              3

Finally, in coordination with North Atlantic Treaty Organization International Security
Assistance Force and the U.S. Mission, CSTC-A should consider developing a
comprehensive plan that synchronizes and integrates all aspects of U.S. Government
interagency efforts towards ANSF health care system development. In addition, tins
proposed U.S. Government planning should extend to the role, responsibilities and
actions of related capacity building efforts by other international forces.

Way ahead. This memorandum report updates and takes into consideration our prior
recommendations on ANSF medical corps capabilities (see Observations V & Wand
accompanying recommendations in Report No. SPO-2009-001, Assessment ofArms,
Ammunition, and Explosives Control and Accountability; Security Assistance; and
Sustainmentfor the Afghan National Security Forces, October 24, 2008).

Potential future work for SPO includes follow up assessments on the operational
implementation and effectiveness of the issues raised in this report.

We appreciate the cOUliesies extended to our staff during the conduct of this assessment.
Please direct your questions to Mr. Elias G. Nimmer at (703) 604-9114 (DSN 664-9114).




                                        ~+R7.J0lWi-e;iJ L
                                            Kenneth P. Moorefield
                                            Deputy Inspector General
                                            Special Plans and Operations




                                            4

Attachment A: Scope, Methodology, and Prior
Coverage
Scope and Methodology. We conducted this assessment from February 2009 through
January 2010 in accordance with the standards established by the President’s Council on
Integrity and Efficiency published in the Quality Standards for Inspections, January
2005. 2 We conducted fieldwork in Afghanistan from March 10, 2009 to March 31,
2009.

We planned and performed the assessment to obtain sufficient and appropriate evidence
to provide a reasonable basis for our observations and conclusions, based on our modified
assessment objectives. We believe that the evidence obtained provides a reasonable basis
for our observations and conclusions based on those assessment objectives.

The scope of our assessment in Afghanistan was to determine whether U.S. Government,
coalition, and Afghan Ministry of Defense and Ministry of Interior goals, objectives,
plans, and guidance to develop and sustain the Afghan National Security Force (ANSF)
health care system were effective.

In accomplishing this assessment, we examined Federal laws and regulations, and
appropriate DoD, Military Service, and CSTC-A3 guidance on military health care &
personnel matters. We also reviewed documents prepared by MPRI, Inc., the contractor
providing assistance to the ANSF, which form the bases for ANSF health care policies &
procedures.

We interviewed CSTC-A officials and Embedded Training Team members in Kabul,
Gardez, Herat, Khandahar, and Mazar-e-Sharif. We additionally interviewed key
members of the Afghan Ministry of Defense and Ministry of Interior to obtain in-depth
information on ANSF military health care issues.

We conducted site visits at the National Military Hospital and adjacent Medical Supply
Depot in Kabul, and the regional military hospitals and medical supply depots in Gardez,
Khandahar, and Mazar-e-Sharif.

In September 2009, CSTC-A provided the OIG their response to the assessment team’s
out-brief which detailed their current progress in developing the medical sustainment
capability of the ANSF.




2
  In 2008, the Council of the Inspectors General on Integrity and Efficiency was established by statue
(Section 7 of P.L. 110-409, October 14, 2008) as a successor organization to the PCIE with the mission of:
addressing integrity, economy, and effectiveness issues that transcend individual Government agencies; and
increasing the professionalism and effectiveness of personnel by developing policies, standards, and
approaches to aid in the establishment of a well-trained and highly skilled workforce in the offices of the
Inspectors General .

                                                    5

Prior Coverage. During the last three years, the Government Accountability Office
(GAO) and the DoD OIG have issued a number of reports and testimony discussing the
development and sustainment of ANSF, and related reconstruction efforts. The Special
Inspector General for Afghanistan Reconstruction has not issued any audit reports on
medical sustainment.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports or at http://www.dodig.mil/inspections/ie/reports.
Some of the prior coverage we used in preparing this report included:

Government Accountability Office
GAO Report No. 09-473SP, “Afghanistan: Key Issues for Congressional Oversight,”
April 21, 2009.

GAO Testimony No.09-467T, “Iraq and Afghanistan: Security, Economic, and
Governance Challenges to Rebuilding Efforts Should Be Addressed in U.S. Strategies,”
March 25, 2009.

GAO Testimony No. 09-380T, “Iraq and Afghanistan: Availability of Forces, Equipment,
and Infrastructure Should Be Considered in Developing U.S. Strategy and Plans,”
February 12, 2009.

GAO Report No. 09-86R, “Provincial Reconstruction Teams in Afghanistan and Iraq,”
October 1, 2008.

GAO Report No. 09-19, “Contingency Contracting: DOD, State, and USAID Contracts
and Contractor Personnel in Iraq and Afghanistan,” October 1, 2008.

GAO Report No. 08-661, “Further Congressional Action May Be Needed to Ensure
Completion of a Detailed Plan to Develop and Sustain Capable Afghan National Security
Forces,” June 18, 2008.

GAO Testimony 08-883T, “U.S. Efforts to Develop Capable Afghan Police Forces Face
Challenges and Need a Coordinated, Detailed Plan to Help Ensure Accountability,” June
18, 2008.

GAO Report No.07-801SP, “Securing, Stabilizing, and Reconstructing Afghanistan: Key
Issues for Congressional Oversight,” May 24, 2007.

Department of Defense Office of Inspector General
DoD IG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives
Control and Accountability; Security Assistance; and Sustainment for the Afghan
National Security Forces,” October 24, 2008.

                                            6

Attachment B: Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense for Health Affairs
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Office of the Chairman of the Joint Chiefs of Staff
Director, Joint Staff

Combatant Commands
Commander, U.S. Central Command
  Commander, U.S. Forces-Afghanistan
  Commander, NATO Training Mission- Afghanistan/ Combined Security Transition
    Command-Afghanistan
Commander, Joint Forces Command

Department of the Army
Surgeon General of the Army
Inspector General, Department of the Army

Department of the Navy
Surgeon General of the Navy
Naval Inspector General

Department of the Air Force
Surgeon General of the Air Force
Inspector General of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
The Special Inspector General for Afghanistan Reconstruction

Other Non-Defense Federal Organizations
Government Accountability Office


                                            7

Congressional Committees and Subcommittees,
Chairman and Ranking Minority Member
Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform




                                        8

      If you suspect Fraud. Waste. Abuse. or Mismanagement in the Department of Defense. please contact:

DEPAR TMENT OF DEFENS E



h",
I I '-J
                                          To rep o rt f raud, w a ste, misma nagement, and abuse o f autho rity.

                                          Send written complaints to: Defense Hotline. The Pentagon, Wash ington, ex: 20301 -19(X)
                                          Phone: 800.424.9098         e-mail: hotline@dodig.miJ       www.dodig.mil/hotline
